HHS/OIG, Audit - "Review of Medicare Payments to Partners Home Care for Home Health Services Preceded by a Hospital Discharge," (A-01-07-00503)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Medicare Payments to Partners Home Care for Home Health Services Preceded by
a Hospital Discharge," (A-01-07-00503)
November 27, 2007
Complete Text of Report is available in PDF format (1.16 mb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Our objective
was to determine whether Partners Home Care (the agency) complied with Medicare
requirements in billing for fiscal year 2004 and 2005 services for beneficiaries
who had been discharged from an acute care hospital in the preceding 14 days.
The agency improperly coded 231 of these claims as if the beneficiary had not
had an acute care stay in the preceding 14 days.  The Centers for Medicare &
Medicaid Services's prepayment edit corrected 155 of the 231 claims.  During our
review, the agency corrected 28 of these claims totaling $13,451.  The 48
remaining unadjusted claims represented overpayments of $16,443.
We recommended
that the agency ensure that its adjustment for the $13,451 in overpayments for
the 28 claims was processed by the regional home health intermediary, return the
$16,443 in overpayments associated with the remaining 48 unadjusted claims to
the regional home health intermediary, and further educate its staff regarding
the importance of identifying all facilities that had discharged the beneficiary
within 14 days of the home health episode and determining which of these
facilities were acute care (including long term care) hospitals.  The agency
generally agreed with our findings but did not accept responsibility for the
overpayments.